C'OCKLE
2311 Douglas Street A E-Mail Address:

Legal Briefs

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

DAMIEN GUEDES; SHANE RODEN; FIREARMS POLICY
FOUNDATION, a non-profit organization; MADISON
SOCIETY FOUNDATION, INC., a non-profit organization;
FLORIDA CARRY, INC., a non-profit organization; DAVID
CODREA; SCOTT HEUMAN; and OWEN MONROE,
Petitioners,

ve
BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND
EXPLOSIVES; WILLIAM P. BARR, in his official capacity
as Attorney General of the United States; REGINA
LOMBARDO, in her official capacity as Acting Deputy
Director; and the UNITED STATES OF AMERICA,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of August, 2019, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI and S. CT. RULE 12.6
LETTER in the above entitled case. All parties required to be served have been served by third-party commercial carrier for
delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JOSHUA PRINCE ERIK S. JAFFE
ADAM KRAUT (Counsel of Record)
CIVIL RIGHTS DEFENSE GENE C. SCHAERR
FIRM, P.C. SCHAERR | JAFFE LLP
646 Lenape Road 1717 K Street, NW

Bechtelsville, PA 19505
(610) 845-3803
Joshua@Princelaw.com

ALAN ALEXANDER BECK
LAW OFFICE OF ALAN BECK
2692 Harcourt Drive

San Diego, CA 92123

(615) 905-9105
alan.alexander.beck@gmail.com

Subscribed and sworn to before me this 29th day of August, 2019.

Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com

STEPHEN D. STAMBOULIEH
STAMBOULIEH LAW, PLLC
P.O. Box 4008

Madison, MS 39130

(601) 852-3440
stephen@sdslaw.us

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

Affiant 38615
Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
